1a
920 F.3d 1223
United States Court of Appeals, Ninth Circuit.
Joan DEMAREST,
DEMAREST Plaintiff-Appellant,
v.
HSBC BANK USA, N.A., AS TRUSTEE FOR the
REGISTERED HOLDERS OF NOMURA HOME
EQUITY LOAN, INC., ASSET-BACKED
CERTIFICATES, SERIES 2006-HE2, incorrectly
sued herein as HSBC Bank USA, N.A.; Ocwen Loan
Servicing, LLC; Mortgage Electronic Registration
Systems, Inc., incorrectly sued herein as Mortgage
Electronic Registration Systems; Western Progressive,
LLC; Does, 1–10, inclusive, Defendants-Appellees.
No. 17-56432
Argued and Submitted March 6, 2019 Pasadena,
CaliforniaFiled April 8, 2019
Attorneys and Law Firms
Richard Lawrence Antognini (argued), Law Office of
Richard L. Antognini, Grass Valley, California, for
Plaintiff-Appellant.
Emilie K. Edling (argued) and Robert W. Norman Jr.,
Houser & Allison APC, Portland, Oregon, for
Defendants-Appellees.
Appeal from the United States District Court for the
Central District of California, André Birotte Jr.,
District Judge, Presiding, D.C. No. 2:16-cv-05088-AB-E

2a
Before: FERDINAND F. FERNANDEZ and MILAN
D. SMITH, JR., Circuit Judges, and DANA L.
CHRISTENSEN,* Chief District Judge.
OPINION
M. SMITH, Circuit Judge:
Plaintiff-Appellant Joan Demarest
Demarest initiated an action in
state court stemming from the foreclosure of her
property. The defendants removed the action to federal
district court based on diversity jurisdiction. The
district court granted the defendants' motion for
summary judgment and entered final judgment.
On appeal, Demarest challenges for the first time the
district court's subject matter jurisdiction over the
action. She argues that the Supreme Court's decision
in Americold Realty Trust v. ConAgra Foods, Inc., –––
U.S. ––––, 136 S.Ct. 1012, 194 L.Ed.2d 71 (2016),
changed the law for determining the citizenship of a
trust in such a way that complete diversity of
citizenship might not have existed in this case. We hold
that prior authority regarding a traditional trust's
citizenship still controls, and conclude that the district
court properly exercised subject matter jurisdiction.
FACTUAL AND PROCEDURAL BACKGROUND
Demarest filed the underlying complaint in this case in
Los Angeles County Superior Court on May 27, 2016,
naming as defendants HSBC Bank USA N.A. (HSBC),
Ocwen Loan Servicing, LLC (Ocwen), Western
Progressive, LLC (Western Progressive), and
Mortgage Electronic Registration Systems, Inc.

3a
(MERS) (collectively, Defendants). The dispute
concerned a loan Demarest had taken out on her West
Hills, California home in 2005; the loan's promissory
note and deed of trust were purportedly “pooled into a
securitized trust labeled NORMA [sic] HOME
EQUITY
LOAN,
INC.,
ASSET-BACKED
CERTIFICATES,
SERIES
2006-HE2
...” Demarest alleged that HSBC acted as trustee for
this investment trust.
In fact, Demarest's loan had been securitized and the
deed of trust assigned to HSBC, as trustee for the
Registered Holders of Nomura Home Equity Loan,
Inc., Asset-Backed Certificates, Series 2006-HE2 (the
Trust). The Trust was governed by a contract entitled
“Pooling and Servicing Agreement Dated as of April 1,
2006” (the Agreement), entered into between HSBC
and various other parties. Among other things, the
Agreement established the Trust, enumerated its
assets, and appointed HSBC as trustee, and it
described the Trust as a common law trust governed by
New York law. Under the Agreement, all “right, title
and interest” in the assets of the Trust were conveyed
to the “Trustee [HSBC] for the use and benefit of the
Certificateholders,” and the trustee was given the
power to hold the Trust's assets, sue in its own name,
transact the Trust's business, terminate servicers, and
engage in other necessary activities.
In her complaint (which she filed following her default
on the loan and multiple initial actions aimed at
combatting
the
foreclosure
of
her
property), Demarest asserted various causes of action

4a
under California law, including wrongful foreclosure.
Defendants removed the case to the district court. The
notice of removal specifically stated that it was filed on
the behalf of, among others, “HSBC Bank USA, N.A.,
as Trustee for the registered holders of Nomura Home
Equity Loan, Inc., Asset-Backed Certificates, Series
2006-HE2 ... incorrectly sued herein as HSBC Bank
USA N.A.” Diversity jurisdiction pursuant to 28 U.S.C.
§ 1332 was the only basis for federal jurisdiction
claimed in the notice. It asserted that Demarest was a
citizen of California, Ocwen was a citizen of Florida and
Georgia, MERS was a citizen of Delaware and Virginia,
and Western Progressive was a nominal defendant and
was therefore disregarded for diversity purposes. As
for HSBC, the notice stated,
HSBC is a national banking association
organized under the laws of the United States
with its main office in McLean, Virginia.... Since
its main office is located in Virginia, HSBC is a
citizen of Virginia for diversity purposes. At the
present time and at the commencement of this
action, HSBC is not a citizen of California.
(citation omitted). Given that no Defendant was,
like Demarest,
Demarest a citizen of California, the notice
concluded that diversity jurisdiction was established,
and that removal was proper.
After the district court dismissed MERS from the
action through a motion for judgment on the pleadings,
the remaining Defendants moved for summary
judgment. The district court granted the motion and

5a
entered final judgment for Defendants. This timely
appeal followed.
STANDARD OF REVIEW AND JURISDICTION
“We review de novo a district court's determination
that diversity jurisdiction exists.” Dep't of Fair Emp't
& Hous. v. Lucent Techs., Inc., 642 F.3d 728, 736 (9th
Cir. 2011) (quoting Kroske v. U.S. Bank Corp., 432 F.3d
976, 979 (9th Cir. 2005)). We have jurisdiction pursuant
to 28 U.S.C. § 1291.
ANALYSIS
Demarest does not contest the district court's
summary judgment decision on appeal. Instead, she
challenges, for the first time, the court's subject matter
jurisdiction over the action.
I. Challenging Jurisdiction on Appeal
Federal subject matter jurisdiction—specifically,
diversity jurisdiction—exists where an action is
between “citizens of different States” and “the matter
in controversy exceeds the sum or value of $75,000,
exclusive of interest and costs.” Id. § 1332(a). It
requires “complete diversity” of citizenship, meaning
that “the citizenship of each plaintiff is diverse from the
citizenship of each defendant.” Caterpillar Inc. v.
Lewis, 519 U.S. 61, 68, 117 S.Ct. 467, 136 L.Ed.2d 437
(1996).
A defendant may remove to federal court “any civil
action brought in a State court of which the district
courts of the United States have original
jurisdiction.” 28
U.S.C.
§
1441(a).
Although

6a
“[p]rocedural defects in the removal of an action may be
waived by the failure to make a timely objection before
the case proceeds to the merits,” defects pertaining to
“the subject matter jurisdiction of the court cannot be
waived and may be raised at any time.” O'Halloran v.
Univ. of Wash., 856 F.2d 1375, 1379 (9th Cir.
1988) (quoting Libhart v. Santa Monica Dairy Co., 592
F.2d 1062, 1065 (9th Cir. 1979)). Therefore, where, as
here, a district court disposes of an action on the merits
and an appellant then challenges jurisdiction for the
first time, “the relevant jurisdictional question on [ ]
appeal ... is ‘not whether the case was properly
removed, but whether the federal district court would
have had original jurisdiction in the case had it been
filed in that court.’ ” Aradia Women's Health Ctr. v.
Operation Rescue, 929 F.2d 530, 534 (9th Cir.
1991) (quoting Grubbs v. Gen. Elec. Credit Corp., 405
U.S. 699, 702, 92 S.Ct. 1344, 31 L.Ed.2d 612 (1972)).
Accordingly, we must determine whether the district
court would have had diversity jurisdiction
if Demarest had originally filed her case in federal
court.1
II. Citizenship of a Trust
Demarest contends that Defendants failed to establish
diversity jurisdiction because, following the Supreme
Court's decision in Americold, they were required to
demonstrate the citizenship of the Trust's investors,
and could not simply rely on the citizenship of HSBC as
its trustee. To address this argument, we briefly
consider the Court's treatment of trust citizenship
in Americold and two other pertinent decisions.

7a
Decades ago, in Navarro Savings Ass'n v. Lee, the
Supreme Court addressed “whether the trustees of a
business trust may invoke the diversity jurisdiction of
the federal courts on the basis of their own citizenship,
rather than that of the trust's beneficial
shareholders.” 446 U.S. 458, 458, 100 S.Ct. 1779, 64
L.Ed.2d 425 (1980). There, the plaintiffs were eight
trustees of a Massachusetts trust who sued in their own
names, and the defendant disputed the existence of
complete diversity on the ground that, because the
trust beneficiaries rather than the trustees were the
real parties in controversy, the citizenships of the
former ought to have controlled. Id. at 459–60, 100 S.Ct.
1779. The Court reaffirmed the proposition that “a
trustee is a real party to the controversy for purposes
of diversity jurisdiction when he possesses certain
customary powers to hold, manage, and dispose of
assets for the benefit of others,” concluding, “For more
than 150 years, the law has permitted trustees who
meet this standard to sue in their own right, without
regard to the citizenship of the trust beneficiaries. We
find no reason to forsake that principle today.” Id. at
464–66, 100 S.Ct. 1779.
Ten years later, in Carden v. Arkoma Associates, the
Court addressed the related issue of “whether, in a suit
brought by a limited partnership, the citizenship of the
limited partners must be taken into account to
determine diversity of citizenship among the
parties.” 494 U.S. 185, 186, 110 S.Ct. 1015, 108 L.Ed.2d
157 (1990). It held that “diversity jurisdiction in a suit
by or against the [limited partnership] entity depends
on the citizenship of ‘all the members.’ ” Id. at 195–96,

8a
110 S.Ct. 1015 (quoting Chapman v. Barney, 129 U.S.
677, 682, 9 S.Ct. 426, 32 L.Ed. 800 (1889)). Notably, the
Court also determined that Navarro was consistent
with this rule, because that case, unlike Carden, “did
not involve the question whether a party that is an
artificial entity other than a corporation can be
considered a ‘citizen’ of a State, but the quite separate
question whether parties that were undoubted ‘citizens’
(viz., natural persons) were the real parties to the
controversy.” Id. at 191, 110 S.Ct. 1015. It continued,
[W]e did indeed discuss the characteristics of a
Massachusetts business trust—not at all,
however, for the purpose of determining
whether the trust had attributes making it a
“citizen,” but only for the purpose of establishing
that the respondents were “active trustees
whose control over the assets held in their names
is real and substantial,” thereby bringing them
under the rule, “more than 150 years” old, which
permits such trustees “to sue in their own right,
without regard to the citizenship of the trust
beneficiaries.” Navarro, in short, has nothing to
do with the Chapman question, except that it
makes available to respondent the argument by
analogy that, just as business reality is taken
into account for purposes of determining
whether a trustee is the real party to the
controversy, so also it should be taken into
account for purposes of determining whether an
artificial entity is a citizen.

9a
Id. at 191–92, 110 S.Ct. 1015 (citation omitted)
(quoting Navarro, 446 U.S. at 465–66, 100 S.Ct. 1779).
Although “[c]ourts applying Navarro and Carden to the
question of a trust's citizenship for diversity purposes
have reached different conclusions,” Raymond Loubier
Irrevocable Tr. v. Loubier, 858 F.3d 719, 727 (2d Cir.
2017), we have held that “[a] trust has the citizenship of
its trustee or trustees.” Johnson v. Columbia Props.
Anchorage, LP, 437 F.3d 894, 899 (9th Cir. 2006); see
also Mullins v. TestAmerica, Inc., 564 F.3d 386, 397 &
n.6 (5th Cir. 2009) (citing Navarro for the proposition
that the “citizenship of a trust is that of its
trustee”); Ind. Gas Co. v. Home Ins. Co., 141 F.3d 314,
318 (7th Cir. 1998) (“Trusts take the citizenship of the
trustees rather than of the beneficiaries.”).2
In 2016, the Supreme Court decided Americold, in
which it addressed “how to determine the citizenship of
a ‘real estate investment trust,’ an inanimate creature
of Maryland law,” and concluded that “[w]hile humans
and corporations can assert their own citizenship, other
entities take the citizenship of their members.” 136
S.Ct. at 1014. In so deciding, the Court noted that
under Maryland law, a “real estate investment trust” is
“not a corporation,” but is instead “an ‘unincorporated
business trust or association’ in which property is held
and managed ‘for the benefit and profit of any person
who may become a shareholder.’ ” Id. at 1015–
16 (quoting Md. Code Ann. Corps. & Ass'ns § 8-101(c)).
The Court determined that the real estate investment
trust's “shareholders appear to be in the same position
as the shareholders of a joint-stock company or the

10a
partners of a limited partnership—both of whom we
viewed as members of their relevant entities,” and
“therefore conclude[d] that for purposes of diversity
jurisdiction, [the real estate investment trust's]
members include its shareholders.” Id.
In so ruling, the Court did not overturn Navarro, but
instead distinguished it:
As we have reminded litigants before ...
“Navarro had nothing to do with the citizenship
of [a] ‘trust.’ ” Rather, Navarro reaffirmed a
separate rule that when a trustee files a lawsuit
in her name, her jurisdictional citizenship is the
State to which she belongs—as is true of any
natural person. This rule coexists with our
discussion above that when an artificial entity is
sued in its name, it takes the citizenship of each
of its members.
Id. (citations omitted) (quoting Carden, 494 U.S. at 192–
93, 110 S.Ct. 1015). But it also acknowledged that
“confusion regarding the citizenship of a trust is
understandable and widely shared,” and opined that
“[t]he confusion can be explained, perhaps, by
tradition.” Id.
Traditionally, a trust was not considered a
distinct legal entity, but a “fiduciary
relationship” between multiple people. Such a
relationship was not a thing that could be haled
into court; legal proceedings involving a trust
were brought by or against the trustees in their
own name. And when a trustee files a lawsuit or

11a
is sued in her own name, her citizenship is all
that matters for diversity purposes. For a
traditional trust, therefore, there is no need to
determine its membership, as would be true if
the trust, as an entity, were sued.
Id. (citations omitted) (quoting Klein v. Bryer, 227 Md.
473, 177 A.2d 412, 413 (1962)). The Court further noted
that many states “have applied the ‘trust’ label to a
variety of unincorporated entities that have little in
common with this traditional template”—such as
Maryland's “real estate investment trust,” which is a
separate legal entity that “itself can sue or be
sued.” Id. For such unincorporated entities, the Court
repeated that citizenship is determined based on the
citizenships of its members, and accordingly “decline[d]
to apply the same rule to an unincorporated entity sued
in its organizational name that applies to a human
trustee sued in her personal name.” Id. at 1016–17.
III. Application to This Case
Althoug
Demarest suggests that Americold
constituted a sea change in how courts determine the
citizenship of a trust, we do not find the decision to be
quite so momentous. Indeed, the Court clearly
rearticulated that which we already knew: “when a
trustee files a lawsuit or is sued in her own name, her
citizenship is all that matters for diversity
purposes.” Americold,
136
S.Ct.
at
1016 (citing Navarro, 446 U.S. at 462–66, 100 S.Ct.
1779).

12a
Here, HSBC—the trustee—was sued in its own
name. Demarest's complaint named “HSBC BANK
USA N.A.” as a defendant, and did not mention the
Trust either in the caption or in the complaint's list of
defendants. Therefore, Americold holds that, because
HSBC as trustee was “sued in [its] own name, [its]
citizenship is all that matters for diversity
purposes.” Id. “[A] national bank ... is a citizen of the
State in which its main office, as set forth in its articles
of association, *1229 is located.” Wachovia Bank v.
Schmidt, 546 U.S. 303, 307, 126 S.Ct. 941, 163 L.Ed.2d
797 (2006). It is undisputed that HSBC is a national
banking association with its main office in McLean,
Virginia. Thus, HSBC is a citizen of Virginia
and Demarest is a citizen of California. The parties
were therefore completely diverse, and the district
court properly exercised diversity jurisdiction over the
action.
The case before us is easily resolved. But we note a
potential tension between our precedent in Johnson—
“[a] trust has the citizenship of its trustee or
trustees,” 437 F.3d at 899—and Americold, where the
Supreme Court ultimately concluded that the
citizenship of other, nontraditional trusts (like
Maryland's real estate investment trusts) should be
determined based on their members, not their trustees.
Any friction is strictly superficial, however,
since Johnson—and Navarro, and this case—all dealt
with what the Court in Americold referred to as a
“traditional trust.” Americold, 136 S.Ct. at 1016. The
Second
Circuit
has
interpreted Americold as
“distinguish[ing] (1) traditional trusts establishing only

13a
fiduciary relationships and having no legal identity
distinct from their trustees, from (2) the variety of
unincorporated artificial entities to which states have
applied the ‘trust’ label, but which have little in
common with traditional trusts.” Loubier, 858 F.3d at
722. Although Johnson provided little description of the
trust at issue there, it was “a trust whose sole trustee is
a bank incorporated in Delaware with its principal place
of business in Minnesota.” 437 F.3d at 899. This almost
certainly referred to a traditional trust, for
provides
guiding
which Navarro still
precedent. Navarro held that “a trustee is a real party
to the controversy for purposes of diversity jurisdiction
when he possesses certain customary powers to hold,
manage, and dispose of assets for the benefit of
others,” 446 U.S. at 464, 100 S.Ct. 1779—in other words,
when a trustee oversees a traditional trust, as
distinguished by the Court in Americold from other
artificial business entities.3
We further note that the Trust at issue in this case is,
under any criteria, properly characterized as a
traditional trust. In addition to the factors articulated
in Navarro, other post-Americold circuit opinions have
outlined various considerations to analyze when
defining a trust. These include: the nature of the trust
as defined by the applicable state law, see Wang ex rel.
Wong v. New Mighty U.S. Tr., 843 F.3d 487, 495 (D.C.
Cir. 2016); whether the trust has or lacks juridical
person status, see id.; whether the trustee possesses
real and substantial control over the trust's
assets, see Bynane v. Bank of N.Y. Mellon, 866 F.3d
351, 357 (5th Cir. 2017); and the *1230 rights, powers,

14a
and responsibilities of the trustee, as described in the
controlling agreement, see id.
Here, Section 2.09 of the Agreement—“Establishment
of Trust”—read,
The Depositor does hereby establish, pursuant
to the further provisions of this Agreement and
the laws of the State of New York, an express
trust to be known, for convenience, as “Nomura
Home Equity Loan, Inc., Home Equity Loan
Trust, Series 2006-HE2” and does hereby
appoint HSBC Bank USA, National Association,
as Trustee in accordance with the provisions of
this Agreement.
Section 2.10 referred to the Trust as a “common law
trust,” and under New York law, legal title to trust
property “vests in the trustee.” N.Y. Est. Powers &
Trusts Law § 7-2.1(a); see also In re Beiny, No. 621M/2002, 2009 WL 1050727, at *3 (N.Y. Sur. Ct. Apr. 20,
2009)(“[Section] 7-2.1(a) expressly provides that legal
title to trust property vests solely in the trustees. Thus,
neither the beneficiaries of a trust nor any one other
than the trustee may validly encumber or convey legal
title to property owned by a trust.”), aff'd sub
nom.Wynyard v. Beiny, 82 A.D.3d 665, 919 N.Y.S.2d
165 (2011). The Agreement also authorized HSBC to
institute a “suit or proceeding in its own name as
Trustee.” See Wells Fargo Bank, N.A. v. 390 Park Ave.
Assocs., No. 16 Civ. 9112 (LGS), 2017 WL 2684069, at *3
(S.D.N.Y. June 21, 2017) (concluding that an agreement
“grant[ed] the Trustee substantially the same powers
that the trustee in Navarro had” where the trustee

15a
held funds “for the exclusive use and benefit of all
present and future Certificateholders” and was
therefore “a ‘real and substantial’ party to the
controversy”); see also Oscar Gruss & Son, Inc. v.
Hollander,
337
F.3d
186,
195
(2d
Cir.
2003) (determining that a party “was clearly intended
to be the ‘master of the litigation’ ” where an
“agreement entered into between [it] and its former
employees gave [it] the express power to act on their
behalf with regard to their rights in the
observe
that,
“[n]ot
warrants”).4Defendants
surprisingly ... New York Federal District Courts
considering the citizenship of New York real estate
mortgage
investment
trusts
in
the
wake
of Americold have distinguished the cases before
them.”5
In short, Johnson remains good law when applied to
what Americold labelled traditional trusts; in such a
case, as Navarro held, the trustee is the real party in
interest, and so its citizenship, not the citizenships of
the trust's beneficiaries, controls the diversity analysis.
Here, HSBC—the trustee of a traditional trust—was
sued in its own name and was the real party in interest
to the litigation. Under any analysis, therefore, HSBC's
citizenship is key for diversity purposes.
CONCLUSION
Americold might have somewhat complicated how we
should ascertain the citizenship of a trust, but it upset
neither Navarro nor our precedent in cases where, as
here, the trustee of a traditional trust is sued in its own
name. Because HSBC and the other Defendants were

16a
not, like Demarest,
Demarest citizens of California, there was
complete diversity, and the district court properly
exercised diversity jurisdiction.
AFFIRMED.
Footnotes
*The Honorable Dana L. Christensen, Chief United
States District Judge for the District of Montana,
sitting by designation.
1Defendants suggest that the district court also
retained federal question jurisdiction over this action,
but because we conclude that the court properly
exercised diversity jurisdiction, we need not address
this alternative theory.
2By
contrast,
the
Third
Circuit,
“after
considering Navarro and Carden, [ ] reaffirm[ed] the
rule ... that the citizenship of both the trustee and the
beneficiary should control in determining the
citizenship of a trust.” Emerald Inv'rs Tr. v. Gaunt
Parsippany Partners, 492 F.3d 192, 205 (3d Cir.
2007) (emphasis added).
3Our sister circuits have reached similar conclusions
post-Americold. See GBForefront, L.P. v. Forefront
Mgmt. Grp., LLC, 888 F.3d 29, 32 (3d Cir. 2018) (“In
light of the Supreme Court's decision in Americold ...
we conclude that the citizenship of a traditional trust is
based only on the citizenship of its trustee.”); Doermer
v. Oxford Fin. Grp., Ltd., 884 F.3d 643, 647 (7th Cir.
2018) (“As the Supreme Court repeatedly has
explained, when a trustee of a traditional trust ‘files a

17a
lawsuit or is sued in her own name, her citizenship is all
that
matters
for
diversity
purposes.’
”
(quoting Americold, 136 S.Ct. at 1016)); Bynane v.
Bank of N.Y. Mellon, 866 F.3d 351, 357 (5th Cir.
2017) (“Navarro's rule is still good law: ‘Where a
trustee has been sued or files suit in her own name, the
only preliminary question a court must answer is
whether the party is an “active trustee[ ] whose control
over the assets held in [its] name[ ] is real and
substantial.” ’ ” (alterations in original) (quoting Justice
v. Wells Fargo Bank Nat'l Ass'n, 674 F. App'x 330, 332
(5th Cir. 2016))); Wang ex rel. Wong v. New Mighty U.S.
Tr., 843 F.3d 487, 489–94 (D.C. Cir. 2016) (concluding
that “the citizenship of a traditional trust depends only
on the trustees' citizenship” because “Americold would
not apply the Carden test to a traditional trust, as it is
not an entity”).
4Defendants further note that “[w]hile much of the
servicing and enforcement duties fall to the Master
Servicer and subservicers under the [Agreement], any
assignment of the Master Servicer role and its assigns
and delegates must be reasonably satisfactory to the
Trustee,” and “the Trustee has the ability to terminate
all the rights and obligations of the Master Servicer, at
which time all rights and duties of the Master Servicer
‘shall pass to and be vested in the Trustee.’
” See LaSalle Bank Nat'l Ass'n v. Lehman Bros.
Holdings, Inc., 237 F.Supp.2d 618, 633 (D. Md.
2002) (“Merely because the [agreement] in this case
delegates to [the servicer] the right to institute a suit in
its capacity as Special Servicer does not affect the basic

18a
premise that the trustee of an express trust is the real
party in interest when suing on behalf of the trust.”).
5See, e.g., U.S. Bank Nat'l Ass'n v. 2150 Joshua's Path,
LLC, No. 13-cv-1598 (DLI)(SIL), 2017 WL 4480869, *3
(E.D.N.Y. Sept. 30, 2017) (“Unlike the Maryland [real
estate investment trust] at issue in Americold, which
was authorized to sue or be sued, ‘under New York law,
a trust cannot sue or be sued, and suits must be brought
by or against the trustee.’ ” (quoting Springer v. U.S.
Bank Nat'l Ass'n, No. 15-cv-1107(JGK), 2015 WL
9462083, at *2 n.1 (S.D.N.Y. Dec. 23, 2015))); U.S. Bank,
Nat'l Ass'n v. UBS Real Estate Sec. Inc., 205 F.Supp.3d
386, 411 (S.D.N.Y. 2016) (determining that “[t]he Trusts
in this case are not analogous to the investment trust
in Americold” because “[i]n contrast to a Maryland real
estate trust, the Trusts have no power to sue on their
own behalves and the Trustee alone is responsible for
the corpus of the Trusts”).

19a
United States District Court, C.D. California.
Joan DEMAREST, Plaintiff,
v.
HSBC BANK USA, N.A., et al., Defendants.
Case No. CV 16-05088-AB (Ex)
Signed 08/08/2017
Attorneys and Law Firms
David W. Seal, Law Office of David Seal, Irvine,
CA, Patricia Renee Rodriguez, Rodriguez Law Group
Inc, Pasadena, CA, Richard L. Antognini, Richard
Antognini Law Offices, Grass Valley, CA, for Plaintiff.
Brian John Wagner, Houser and Allison APC, Irvine,
CA, Eric D. Houser, Robert W. Norman, Jr., Nadia
Darkazalli Adams, Houser and Allison APC, Long
Beach, CA, for Defendants.
ORDER GRANTING MOTION FOR SUMMARY
JUDGMENT
JUDGMENT [DKT. NO. 30]
HONORABLE ANDRÉ BIROTTE JR., UNITED
STATES DISTRICT COURT JUDGE
Before the Court is a Motion for Summary Judgment
filed by Defendants Ocwen Loan Servicing LLC
(“Ocwen”) and HSBC Bank USA, N.A., as Trustee for
the registered holders of Nomura Home Equity Loan,
Inc., Asset-Backed Certificates, Series 2006-HE2,
incorrectly sued herein as HSBC Bank USA, N.A.
(“HSBC”) (together, “Defendants”).1 (Dkt. No. 30.)
Plaintiff Joan Demarest (“Plaintiff”) filed an untimely

20a
Opposition (Dkt. No. 34) and Defendants filed a Reply
(Dkt. No.38). At the April 3, 2017 hearing, the Court
distributed a tentative ruling that would have granted
the motion. Thereafter, the Court granted Plaintiff’s
request to substitute counsel and, following further
briefing, eventually granted Plaintiff’s request under
Rule 56(d) to conduct additional discovery and file a
further opposition. Plaintiff filed a further Opposition
(Dkt. No. 56) and Defendant filed a further Reply (Dkt.
No. 60). The Court will refer to the initial and the
further filings together as the Opposition and Reply.
The Court heard oral argument on August 4, 2017. For
the following reasons, the Court GRANTS the Motion.
I. BACKGROUND
This action arises out of Plaintiff’s default on her
mortgage and Defendants' attempts to foreclose on her
property. Plaintiff alleges that because of defects in the
securitization of her mortgage loan, Defendants never
perfected their security interest in the home and are
not entitled to foreclose. See Compl. ¶¶ 30-34. Although
the Complaint posits a laundry list of alleged defects in
the securitization, the opposition raises only two of
them, so the Court deems Plaintiff to have abandoned
the others.
Specifically, Plaintiff claims that the Deed of Trust was
not transferred and delivered to the Trust before the
Trust’s closing date, and intervening assignments were
not recorded as required by the pooling and servicing
agreement (“PSA”) that governs the securitized trust.
Compl. ¶¶ 74, 75. Because of these defects, “the alleged
beneficiary of Plaintiff’s Deed of Trust, is not the real

21a
party in interest with regard to any action to be taken
against the Plaintiff’s home,” id. ¶ 80, and the
Defendants are “without legal authority or standing” to
foreclose. Id.¶ 84. Based on these allegations, Plaintiff
asserts six causes of action: (1) wrongful foreclosure; (2)
violation of Cal. Civ. Code § 2924(a)(6); (3) cancellation
of written instruments; (4) violation of the covenant of
good faith and fair dealing; (5) declaratory relief; and (6)
violation of Cal. Bus. & Profs. Code § 17200, § 17500, et
seq. Defendants now move for summary judgment on
numerous bases.2
The Court notes that Plaintiff’s further Opposition
does not advance her case. Despite securing a
continuance to conduct discovery, and despite receiving
certain documents from Defendant in discovery and
deposing Rule 30(b)(6) witnesses, the only evidence
Plaintiff submitted was her own 24-line declaration,
attesting to immaterial side-issues. See Demarest Decl.
(Dkt. No. 56-2.)
II. UNDISPUTED FACTS
The facts surrounding Plaintiff’s mortgage loan and
default are not disputed.3 On December 23, 2005,
Plaintiff executed a promissory note and deed of trust
(the “Loan”) with Quick Loan Funding, Inc. (“QLF”) in
the amount of $552,500 related to the property located
at 6568 Sheltondale Avenue, West Hills, CA (the
“Property”). (SUF 1.) After origination, the beneficial
interest in the Loan was transferred to Defendant
HSBC. (SUF 2.) Defendant Ocwen began servicing the
Loan on behalf of Defendant HSBC in April 2006 and

22a
continues to service the Loan on behalf of HSBC. (SUF
3.)
By June of 2006, Plaintiff had fallen behind on her
monthly Mortgage Loan payments. (SUF 4.) In October
16, 2006, Plaintiff entered into a forebearance
agreement to cure the payment default. (SUF 5.) On
February 21, 2007, Plaintiff entered into a second
forbearance agreement (the “2007 Forbearance
Agreement”) that set forth a 12 month payment plan to
cure Plaintiff’s payment default. (SUF 6.) The 2007
Forbearance Agreement contained an express waiver
and general release provision whereby Plaintiff
“release[d] Ocwen from any and all claims known or
unknown that Borrower has against Ocwen, which in
any way arise from or relate to the Note, the Mortgage,
the Loan, or the Default,” and waived any statutory
basis for arguing she could not waive unknown claims.
(SUF 7.)
However, Plaintiff did not make the payments required
under the 2007 Forbearance Agreement. (SUF 8.)
On September 24, 2013, a Notice of Substitution of
Trustee was recorded which substituted Western
Progressive, LLC in as the Trustee under the Deed of
Trust. (SUF 9.)
On November 4, 2013, a Notice of Default and Election
to Sell Under Deed of Trust was recorded against the
Property for Plaintiff’s failure to make the October 1,
2007 contractual loan payment, or any payment
thereafter. (SUF 10.) Between February 18, 2014 and
March 7, 2016, three notices of trustee sale were

23a
recorded for the Property. None of the foreclosure sales
were held. (SUF 11.) Plaintiff still resides at the
Property. (SUF 13.) Plaintiff’s loan is currently due for
the October 1, 2007 loan payment. (SUF 12.) Plaintiff
has approximately $500 cash and no bank accounts,
investment accounts, stocks or retirement accounts.
(SUF 14.)
On or about February 23, 2009, Plaintiff filed a lawsuit
against Quick Loan Funding, Inc., HSBC Bank as
Trustee, Ocwen, MERS and several other defendants in
Superior Court of the State of California for the County
of Los Angeles, under Case No. BC408235, for real
property claims. (SUF 15.)
On or about October 28, 2011, Plaintiff filed a lawsuit
against Aztec Foreclosure Corporation, the previous
foreclosure trustee, in the Superior Court of the State
of California for the County of Los Angeles, under Case
No. BC472386. Plaintiff voluntarily dismissed the case
on or about November 28, 2011. (SUF 20.)
On November 29, 2011, Plaintiff filed another lawsuit
against Defendants in the Superior Court of the State
of California for the County of Los Angeles, under Case
No. LC095614. (SUF 21.)
In Case No. LC095614, Plaintiff challenged the
assignment of the deed of trust, alleging that it was
executed by an unauthorized signor, it was executed
after the closing date of the trust, and that Defendant
HSBC as Trustee lacked the power of sale. (SUF 22.)
On May 17, 2012, Case No. LC095614 was dismissed
after the Court granted Defendants' Demurrer to the

24a
First Amended Complaint without leave to amend.
(SUF 23.) Judgment for defendants was entered on
May 25, 2012. See RJN Exh. 13 p. 1.
III. LEGAL STANDARD
A motion for summary judgment must be granted when
“the pleadings, the discovery and disclosure materials
on file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(c); Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
24748 (1986). The moving party bears the initial burden
of identifying the elements of the claim or defense and
evidence that it believes demonstrates the absence of
an issue of material fact. Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986). Where the nonmoving party will
have the burden of proof at trial, the movant can
prevail merely by pointing out that there is an absence
of evidence to support the nonmoving party’s
case. Id. The nonmoving party then “must set forth
specific facts showing that there is a genuine issue for
trial.” Anderson, 477 U.S. at 248.
“Where the record taken as a whole could not lead a
rational trier of fact to find for the nonmoving party,
there is no ‘genuine issue for trial.’ ” Matsushita, 475
U.S. at 587. The Court must draw all reasonable
inferences in the nonmoving party’s favor. In re Oracle
Corp. Sec. Litig., 627 F.3d 376, 387 (9th Cir.
2010) (citing Anderson, 477 U.S. at 255). Nevertheless,
inferences are not drawn out of thin air, and it is the
nonmoving party’s obligation to produce a factual
predicate from which the inference may be

25a
drawn. Richards v. Nielsen Freight Lines, 602 F.Supp.
1224, 1244–45 (E.D. Cal. 1985), aff'd, 810 F.2d 898 (9th
Cir. 1987). “[M]ere disagreement or the bald assertion
that a genuine issue of material fact exists” does not
preclude summary judgment. Harper v. Wallingford,
877 F.2d 728, 731 (9th Cir. 1989).
IV. DISCUSSION
Defendants move for summary judgment on numerous
bases. All of Plaintiffs' claims are based directly or
indirectly on the alleged defects in the securitization
and recording process resulting in Defendants' lack of
standing to foreclose. See, e.g., ¶¶ 74-76; ¶¶ 98-101; pp.
15, ¶¶ 108-110; p. 16, ¶ 100; p. 17, ¶ 103; p. 18, ¶¶ 114115. Furthermore, Plaintiff has failed to raise a triable
issue as to her defective securitization and recording
allegations. Because these grounds are dispositive of all
of Plaintiff’s claims, the Court will not address
Defendants' claim-specific arguments.
A. Plaintiff Lacks Standing to Challenge the
Securitization of her Loan.
As mentioned above, the Complaint alleges a laundry
list of ways in which the securitization of Plaintiff’s
mortgage was allegedly defective. However, Plaintiff’s
opposition rests only on the allegation that the deed of
trust was not transferred into the securitized trust until
after the trust’s closing date so the transfer was
void.4 All of Plaintiff’s claims rest on her challenge to
the securitization of her loan.
By now it is well-understood that California law does
not permit a borrower to bring a suit to preemptively

26a
challenge an entity’s authority to foreclose. See Gomes
v. Countrywide Home Loans, Inc., 192 Cal. App. 4th
1149, 1156 (2011) (California’s nonjudicial foreclosure
law does not provide a cause of action allowing a
borrower to bring a lawsuit to determine whether a
foreclosing entity is has authority to foreclose).
Numerous recent state and federal decisions have
rejected Plaintiff’s specific theory, finding that
borrowers lack standing to challenge the validity of the
assignment of a deed of trust to the securitized trust
because it occurred after the closing date of the
securitized trust and is therefore void. See Saterbak v.
JPMorgan Chase Bank, N.A., 245 Cal. App. 4th 808,
815 (2016), reh'g denied (Apr. 11, 2016), review
denied (July 13, 2016) (plaintiff lacked standing to bring
pre-foreclosure suit contending that the assignment of
her DOT to the trust was untimely because it occurred
after the closing date); Mendoza v. JPMorgan Chase
Bank, N.A., 6 Cal. App. 5th 802, 813 (2016), review
denied (Mar. 22, 2017) (“New York state and federal
courts continue to uphold the same rationale; that is, a
borrower does not have standing to challenge an
assignment that allegedly breaches a term or terms of a
PSA because the beneficiaries, not the borrower, have
the right to ratify the trustee’s unauthorized acts.”).
Likewise here, Plaintiff lacks standing to challenge the
validity of the assignment under the securitization
agreement. Furthermore, to the extent the assignment
did not comply with the trust agreement, that renders
the assignment merely voidable at the behest of the
beneficiary, and not void as to Plaintiff. Because

27a
Plaintiff’s untenable flawed securitization
underlies all of Plaintiff’s claims, they all fail.

theory

B. Plaintiff Has Not Raised a Triable Issue Of Fact.
Assuming arguendo that Plaintiff’s claims may be
validly be premised on these facts, her claims fail
because she has not raised a triable issue as to these
facts.5
First, Plaintiff’s bald allegations that the deed of trust
was not timely transferred into the securitized trust
and that there may be other unspecified delayed or
never-recorded assignments is contradicted by SUF 2
and the evidence underlying it. This fact states that
“[a]fter origination, the beneficial interest in the Loan
was transferred to Defendant HSBC.” SUF 2. Plaintiff
purports to dispute this fact by stating that there is no
evidence establishing it. But Defendants' proffered fact
is supported by the Declaration of Gina Feezer, a Loan
Analyst for Ocwen. See Feezer Decl. (Dkt. No. 32).6 Ms.
Feezer testified that “the Trust took possession of the
original Loan documents before the [April 1, 2006]
closing date, on or about February 6, 2006.” Feezer
Decl. ¶ 4. Furthermore, Feezer states that this
assignment was recorded on May 12, 2011. Id. ¶ 5.
Although this assignment was recorded after the
transfer, Plaintiff does not show that this fact can
support any of her claims. And Plaintiff points to no
other purported transfers of any interest that had to be
performed and/or recorded either before or after the
securitization. Plaintiff argues that Defendants'
evidence is imperfect because it should include further
documentation. However, Ms. Feezer laid adequate

28a
foundation for the facts she stated. Furthermore,
despite two shots at discovery, Plaintiff presented no
evidence to show that the assignment was
deficient. See Fontenot v. Wells Fargo Bank, N.A., 198
Cal.App.4th 256, 270 (2011) (defendant “did not bear the
burden of proving a valid assignment,” rather, “the
burden rested with plaintiff affirmatively to plead facts
demonstrating the impropriety”). Here, Plaintiff has
only attacked the adequacy of Defendants' evidence,
but has pointed to no evidence whatsoever to establish
her affirmative case—that the transfers of the note or
the assignment of the DOT was defective. Plaintiff has
therefore not created a genuine issue of fact to present
to a jury. Therefore, the undisputed facts establish that
Plaintiff’s deed of trust was transferred into the trust
before it closed, and that the assignment was ultimately
recorded. Because each and every one of Plaintiff’s
claims turns on those allegations, each and every one of
her claims fails. Defendants' motion for summary
judgment is therefore GRANTED.
GRANTED
V. CONCLUSION
For the foregoing reasons, the Court GRANTS Ocwen
Loan Servicing LLC’s and HSBC Bank USA, N.A.,’s
Motion for Summary Judgment. (Dkt. No. 30.)
The Court also DISMISSES Defendant Western
Progressive LLC, which filed an uncontested Notice of
Nonmonetary Status and as to whom the Complaint
makes no actionable allegations.
Defendants shall file a Proposed Judgment within 14
days of the filing of this order.

29a
The Pretrial Conference and Jury Trial dates are
hereby vacated.
IT IS SO ORDERED.
All Citations
Not Reported in Fed. Supp., 2017 WL 4785979
Footnotes
1Plaintiff also named Western Progressive LLC as a
Defendant, but it filed a Notice of Nonmonetary Status
in state court before this case was removed. See Dkt.
No. 12.
2Defendants also filed an unopposed Request for
Judicial Notice (“RJN”) asking the Court to take
judicial notice of 14 exhibits. (Dkt. No. 31.) Exhibits 1-7
consist of publicly recorded documents related to
Plaintiffs' property and foreclosure proceedings and
they are referenced in, or central to, the Complaint’s
allegations; Exhibits 8-14 are court records. With their
further Reply, Defendants filed a Supplemental RJN
seeking judicial notice of five court records. (See Dkt.
No. 61.) All of these materials are judicially noticeable
as matters of public record under Fed. Evid. 201. The
Court therefore GRANTS Defendants' RJN.
3The facts are taken from Defendants' Separate
Statement of Undisputed Facts. (“SUF,” Dkt. No. 40.)
Plaintiff purports to dispute five of the twenty-three
facts Defendants proffer. See Dkt. No. 56-1. The Court
finds that these disputes are not genuine because the
challenged facts are supported by the cited evidence,
and Plaintiff offers no contrary evidence. Furthermore,

30a
Plaintiff submitted no statement of additional facts.
Therefore, all of Defendants' proffered facts are
undisputed.
In addition, although Plaintiff submitted evidence—the
Declaration of Patricia Rodriguez (Dkt. No. 35), the
Declaration of Steven M. Corser (Dkt. No. 37), and the
Declaration of Joan Demarest (Dkt. No. 56-2)—none of
it creates a genuine issue. First, the matters to which
Demarest attests are immaterial to the issues the
motion raises. As for the Rodriguez and Corser
Declarations, Plaintiff does not rely on either of them in
either of her oppositions or her other filings. As such,
Plaintiff has not shown that this evidence is relevant in
any way. Furthermore, the Rodriguez Declaration does
not offer actual evidence but instead restates some of
Plaintiff’s allegations and some of her legal arguments.
Before she withdrew at the eleventh hour, Rodriguez
was Plaintiff’s attorney and has no personal knowledge
of the facts Plaintiff alleges and thus cannot attest to
them, nor is legal argument evidence that belongs in a
declaration. As for Steven Corser, he offers seemingly
expert testimony, but Plaintiff did not disclose him, let
alone as an expert, until she filed his declaration.
Therefore, Corser’s testimony is inadmissible. See Defs'
Objection & Adams Decl. (Dkt. Nos. 39, 38-1). For all of
these reasons, the Court STRIKES the Rodriguez and
Corser Declarations.
4Plaintiff has therefore abandoned claims based on
other alleged defects in the securitization.
5The opposition raises several claims and theories (e.g.,
pertaining to Plaintiff’s payments in bankruptcy) that

31a
do not appear in her Complaint and that are not
relevant to the disposition of this motion,
6Plaintiff did not file objections to any of Defendants'
evidence.

32a
5/15/2019
United States Court of Appeals, Ninth Circuit.
Joan DEMAREST,
DEMAREST Plaintiff-Appellant,
v.
HSBC BANK USA, N.A., AS TRUSTEE FOR the
REGISTERED HOLDERS OF NOMURA HOME
EQUITY LOAN, INC., ASSET-BACKED
CERTIFICATES, SERIES 2006-HE2, incorrectly
sued herein as HSBC Bank USA, N.A.; Ocwen Loan
Servicing, LLC; Mortgage Electronic Registration
Systems, Inc., incorrectly sued herein as Mortgage
Electronic Registration Systems; Western Progressive,
LLC; Does, 1–10, inclusive, Defendants-Appellees.
No. 17-56432
ORDER
Before: FERNANDEZ and M. SMITH, Circuit Judges,
and CHRISTENSEN,* District Judge.
Judge M. Smith has voted to deny the petition for
rehearing en banc, and Judges Fernandez and
Christensen have so recommended. The full court has
been advised of the petition for rehearing en banc and
no judge of the court has requested a vote on it. Fed. R.
App. P. 35. The petition is DENIED.
Footnote

33a
*The Honorable Dana L. Christensen, Chief United
States District Judge for the District of Montana,
sitting by designation.

